             AUDIT OF THE

  OFFICE ON VIOLENCE AGAINST WOMEN

COOPERATIVE AGREEMENT AWARDED TO THE

    CITY OF SPOKANE, WASHINGTON


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


       Audit Report GR-90-14-001

             December 2013

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

      COOPERATIVE AGREEMENT AWARDED TO THE

            CITY OF SPOKANE, WASHINGTON


                            EXECUTIVE SUMMARY


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a $380,823 cooperative agreement
(2008-EW-AX-K009) that the Office on Violence Against Women (OVW),
awarded to the City of Spokane, Washington (Spokane). 1 The objective of
our audit was to review performance in the following areas: (1) internal
control environment; (2) drawdowns; (3) program income; (4) expenditures
including personnel, fringe benefits, indirect costs, and accountable
property; (5) matching; (6) monitoring of sub-recipients and contractors;
(7) budget management; (8) reporting; (9) additional award requirements;
(10) program performance and accomplishments; and (11) post end date
activity.

       According to the award application, Spokane proposed using the
cooperative agreement funds to support a multidisciplinary team that would
respond to cases involving elder abuse by providing counseling and support
to victims through the criminal justice process. 2 The team’s goals included
enhancing services for victims of elder abuse, as well as improving the
identification, investigation, prosecution, and adjudication of elder abuse
cases. However, our audit revealed that elder abuse investigations actually
decreased during the award period even though Spokane experienced an
increase in reports of elder abuse during the same period. In discussing this
issue with Spokane officials, we identified a concern that elder abuse
investigations may be becoming backlogged due to limited personnel
assigned to those investigations. We recommend that OVW work with
Spokane to identify solutions to ensure that investigations related to crimes
against the elderly are not neglected as a result of other program activity.

      We also identified deficiencies regarding Spokane’s internal controls,
drawdowns, expenditures, accountable property records, and compliance
with award requirements. Specifically, we questioned $17,368 of Spokane’s
award expenditures, including $15,268 related to non-OVW sponsored

      1
        The cooperative agreement was awarded to the City of Spokane, Washington, and
was administered by the Spokane Police Department. For uniformity, we refer to the
awardee as Spokane throughout the report, unless stated otherwise.
      2
         The multidisciplinary team included the Spokane Police Department, the Spokane
County Prosecuting Attorney, charitable non-profit organizations, and a law school.
seminars attended without prior OVW approval, which violated award rules.
We also identified $1,573 in unsupported travel and training costs, as well as
a $527 car rental cost unrelated to the OVW award project. Spokane also
erroneously drew down $22,076 in OVW funds and did not identify the error
until 3.5 months later at which time it corrected the drawdown. Further, we
reported concerns with Spokane’s management of accountable property,
controls over its approved Master Vendor List, and Federal Financial Reports.
Spokane also paid a contractor without adequate documentation of work
completed, but as a result of our audit requested and received adequate
supporting documentation for those expenditures.

       The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. Our report contains nine
recommendations. We discussed the results of our audit with Spokane
officials and have included their comments in the report, as applicable. The
audit objective, scope, and methodology are discussed in Appendix I. The
Schedule of Dollar-related Findings is found in Appendix II.




                                    – ii –
                                 TABLE OF CONTENTS


INTRODUCTION ......................................................... 1

       Background.......................................................................... 2

       OIG Audit Approach .............................................................. 2



FINDINGS AND RECOMMENDATIONS ......................... 4

       Internal Control Environment ................................................. 4

       Drawdowns .......................................................................... 6

       Expenditures ........................................................................ 7

       Accountable Property ............................................................ 8

       Monitoring Contractors .......................................................... 9

       Budget and Management ....................................................... 9

       Reporting Requirements .......................................................10

       Additional Award Requirements .............................................12

       Program Performance and Accomplishments ...........................12

       Post End Date Activity ..........................................................14

       Conclusion ..........................................................................14

       Recommendations ...............................................................15


APPENDICES:

I-      OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 17


II -    SCHEDULE OF DOLLAR-RELATED FINDINGS ................... 19


III - CITY OF SPOKANE, WASHINGTON

       RESPONSE TO THE DRAFT AUDIT REPORT ................... 20


IV - OFFICE ON VIOLENCE AGAINST WOMEN

      RESPONSE TO THE DRAFT AUDIT REPORT .................... 24


V-      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

         SUMMARY OF ACTIONS NECESSARY TO CLOSE THE

         REPORT ........................................................................ 27

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

      COOPERATIVE AGREEMENT AWARDED TO THE

            CITY OF SPOKANE, WASHINGTON


                                  INTRODUCTION


       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a $380,823 cooperative agreement
(2008-EW-AX-K009) that the Office on Violence Against Women (OVW),
awarded to the City of Spokane, Washington (Spokane). 1 The purpose of
this award was to provide opportunities for Spokane to develop and
strengthen effective responses to violence against women, and to increase
training for police, prosecutors, and the judiciary in recognizing,
investigating, and prosecuting instances of neglect, exploitation, domestic
violence, and sexual assault against individuals 50 years or older. As of
December 2012, Spokane had expended $199,459 (52 percent) of the
award.

                                  EXHIBIT 1

                          OVW COOPERATIVE AGREEMENT

                             AWARDED TO SPOKANE

                                      AWARD          AWARD            AWARD
                  AWARD             START DATE      END DATE 2        AMOUNT

            2008-EW-AX-K009          10/01/08        09/30/12         $   380,823
                                                           Total      $ 380,823
          Source: OVW

      The purpose of our audit was to determine whether costs claimed
under Award 2008-EW-AX-K009 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the award. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including personnel,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) monitoring of sub-recipients and contractors; (7) budget management;
(8) reporting; (9) additional award requirements; (10) program performance
and accomplishments; and (11) post end date activity. We determined that


      1
        The cooperative agreement was awarded to the City of Spokane, Washington, and
was administered by the Spokane Police Department. For uniformity, we refer to the
awardee as Spokane throughout the report, unless stated otherwise.
      2
          The Award End Date includes all approved time extensions.
program income, indirect costs, and matching were not applicable to this
award.

Background

      Spokane is located in the County of Spokane, Washington,
approximately 280 miles east of Seattle. Spokane is one of the largest cities
in the state with a population of 208,916, while Spokane County has a
population of 471,221.

       OVW provides national leadership in reducing violence against women
through its implementation of the Violence Against Women Act. 3 Created in
1995, OVW administers financial and technical assistance to communities
across the county. The mission of OVW is to provide federal leadership in
developing the nation’s capacity to reduce violence against women and
administer justice for and strengthen services to victims of domestic
violence, dating violence, sexual assault, and stalking. By forging state,
local, and tribal partnerships among police, prosecutors, judges, victim
advocates, health care providers, faith leaders, and others, OVW grant
programs help provide victims with the protection and services they need to
pursue safe and healthy lives, while simultaneously enabling communities to
hold offenders accountable for their violence.

      OVW awarded a cooperative agreement to Spokane from its Enhanced
Training and Services to End Violence and Abuse of Women in Later Life
Program. To accomplish the purpose of the cooperative agreement,
Spokane created a multidisciplinary team that would respond to cases
involving elder abuse. This team was to provide counseling and support to
victims, while simultaneously walking them through the criminal justice
process. The multidisciplinary team included the Spokane Police
Department, the Spokane County Prosecuting Attorney, charitable non-profit
organizations, and a law school.

OIG Audit Approach

      We tested Spokane’s compliance with what we consider to be the most
important conditions of the cooperative agreement. Unless otherwise stated
in our report, the criteria we audited against are contained in the Office of
Justice Programs Financial Guide (OJP Financial Guide), award documents,
Code of Federal Regulations (C.F.R.), and Office of Management and Budget
(OMB) Circulars. Specifically, we tested:


     3
         Pub. L. No. 103-322 (1994).


                                       – 2 –

     •	 Internal Control Environment – to determine whether the
        internal controls in place for the processing and payment of funds
        were adequate to safeguard the funds awarded to Spokane and
        ensure compliance with the terms and conditions of the award.

     •	 Drawdowns – to determine whether drawdowns were adequately
        supported and if Spokane was managing receipts in accordance
        with federal requirements.

     •	 Expenditures – to determine whether costs charged to the award,
        including payroll and fringe benefits were accurate, adequately
        supported, allowable, reasonable, and allocable.

     •	 Monitoring Sub-recipients and Contractors – to determine that
        contractors have adequate internal controls.

     •	 Budget Management – to determine whether there were
        deviations between the amounts budgeted and the actual costs for
        each category.

     •	 Reporting – to determine if the required financial and
        programmatic reports were submitted in a timely manner and
        accurately reflected award activity.

     •	 Additional Award Requirements – to determine whether
        Spokane complied with award guidelines, special conditions, and
        solicitation criteria.

     •	 Program Performance and Accomplishments – to determine
        whether Spokane made a reasonable effort to accomplish stated
        objectives.

     •	 Post End Date Activity – to determine whether Spokane
        submitted its final progress and financial reports in a timely
        manner.

       The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. Our report contains nine
recommendations. We discussed the results of our audit with Spokane
officials and have included their comments in the report, as applicable. The
audit objective, scope, and methodology are discussed in Appendix I. The
Schedule of Dollar-related Findings is found in Appendix II.




                                    – 3 –

                 FINDINGS AND RECOMMENDATIONS

              We found that Spokane did not comply with essential
              award requirements in seven of the nine areas that we
              tested. Specifically, we found that elder abuse
              investigations actually decreased during the award period
              even though Spokane experienced an increase in reports
              of elder abuse during the same period. We also
              questioned $17,368 of Spokane’s award expenditures,
              including $15,268 related to non-OVW sponsored
              seminars. We identified $1,573 in unsupported travel and
              training costs, as well as a $527 car rental cost unrelated
              to the OVW award project. Spokane also erroneously drew
              down $22,076 in OVW funds and did not identify the error
              until 3.5 months later at which time it corrected the
              drawdown. Our audit also revealed deficiencies in
              Spokane’s accountable property records, controls over its
              approved Master Vendor List, and Federal Financial
              Reports. 4

Internal Control Environment

       We reviewed Spokane’s policies and procedures, Single Audit Report,
and financial management system to assess its risk of noncompliance with
laws, regulations, guidelines, and terms and conditions of the award. We
also interviewed individuals from Spokane’s grant management, accounting,
and finance staff regarding internal controls and processes related to
personnel, purchasing, and accounts payable functions. Finally, we
observed the financial management system, as a whole, to further assess
risk.

Single Audit

     According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. We reviewed Spokane’s most recent Single Audit for

       4
          Our prior audit of an OJP grant to Spokane also disclosed deficiencies with its
accountable property records, controls over its approved Master Vendor List, and Federal
Financial Reports.

        U.S. Department of Justice Office of the Inspector General, Audit of the Office of
Justice Programs Edward Byrne Memorial Justice Assistance Grant Program Grants Awarded
to the City of Spokane, Washington, Audit Report GR-90-13-007 (September 2013), 7, 10­
12.


                                           – 4 –

fiscal year 2010 which was issued September 26, 2011, and noted that the
independent auditors issued an unqualified opinion. Independent auditors
reported no deficiencies in the design or operation of the internal controls
over major federal programs. In addition, there were no deficiencies that
were considered material weaknesses.

Financial Management System

       The OJP Financial Guide requires that all award recipients “establish
and maintain adequate accounting systems and financial records to
accurately account for funds awarded to them.” In addition, the
OJP Financial Guide requires that the accounting system provide adequate
maintenance of financial data to enable planning, control, and measurement.
Finally, it requires that award recipients separately account for each award
and not commingle funds.

      Overall, we found that Spokane adequately maintained award–related
financial records and data in accordance with the OJP Financial Guide.
Spokane utilized the Mitchell Humphrey Financial Management System II
(FMS II). Based on our review of award-related transactions, we found that
Spokane utilized FMS II to accurately account for award-related receipts and
expenditures. Further, we found that award-related transactions, such as
receipts and expenditures, were separately tracked from other funding.

        However, we noted two internal control weaknesses. As discussed in
more detail in the Drawdown section of this report, we identified a
breakdown in controls that did not allow Spokane to immediately identify an
erroneous drawdown. Also, we noted a weakness regarding Spokane’s
Master Vendor List. Specifically, the accountant who processes accounts
payable also has access to the Master Vendor List. This access could allow
the accountant to falsify vendor addresses thereby allowing for payment of
fictitious invoices with OVW funds. We discussed this weakness with
Spokane and it believes internal controls are in place to mitigate the risk as
the accountant has limited access to the Master Vendor List and another
individual is responsible for reconciling the City’s operating bank account
once payment has been made. Nevertheless, we recommend that OVW
ensure that Spokane strengthen its internal controls over the Master Vendor
List by limiting who has access to the list in order to minimize the potential
risk of unauthorized changes to vendor information. 5


       5
          Our prior audit of an OJP grant to Spokane also disclosed this deficiency related to
controls over Spokane’s approved Master Vendor List. OIG, Audit of the Office of Justice
Programs Edward Byrne Memorial Justice Assistance Grant Program Grants Awarded to the
City of Spokane, Washington, 7.


                                            – 5 –

Drawdowns

       The OJP Financial Guide, Part III, Chapter 1 generally requires that
recipients time their drawdown request to ensure that federal cash-on-hand
is the minimum needed for disbursements to be made immediately or within
10 days. According to a Spokane official, drawdowns were made as
reimbursements and based on the previous quarter’s expenditures.

       We tested 13 drawdowns by comparing the drawdown amounts to the
expenditures recorded in the general ledger. As illustrated in Exhibit 2, we
noted variances between the cumulative amounts that were drawn down and
the actual cumulative expenditures. Most significantly, we identified an
incorrect drawdown of $22,076 that was received on December 22, 2009.
According to a Spokane official, the $22,076 drawdown was supposed to be
drawn down from another grant, but was mistakenly drawn down from the
OVW cooperative agreement. As a result, for a period of approximately
6 months, there was a balance of receipts exceeding actual expenditures.
This was contrary to the requirement that drawdowns be expended within
10 days of receipt. In addition, we learned that the erroneous drawdown of
$22,076 was recorded to another general ledger. Therefore, it was not
immediately identified as an error and continued to be uncorrected for a
period of approximately 3.5 months. We view this as a breakdown in
controls. Controls should have been in place to allow Spokane to
immediately identify the error and provide an opportunity to make
corrections. When we discussed this issue with a Spokane official, she
stated that when they learned of the error, they implemented procedures
that included reconciling receipts to expenditures in order to avoid a similar
instance in the future. Regarding the erroneous drawdown, given that it was
only one instance and Spokane took action to correct the related breakdown
in controls, we do not consider it an exception. Spokane recognized this
issue and plans to put together a set of written procedures to reconcile
drawdown requests to actual expenditures. We recommend that OVW
ensure Spokane formalize its new procedures that involve the reconciliation
of award receipts to actual expenditures before funds are drawn down.




                                    – 6 –

                                 EXHIBIT 2

                             DRAWDOWN HISTORY

                         AMOUNT
           DATE OF       DRAWN        CUMULATIVE      CUMULATIVE       CUMULATIVE
  NO.    DRAWDOWN          DOWN       DRAWDOWNS      EXPENDITURES      DIFFERENCES
   1      01/14/09        $ 1,623        $   1,623        $    1,623       $       0
   2      04/09/09           7,016           8,639             4,754          3,885
   3      05/12/09          15,624          24,263           27,751          -3,488
   4      10/02/09          26,410          50,673           51,808          -1,135
   5      12/22/09          22,076          72,749           63,821           8,928
   6      01/20/10          15,064          87,813           67,709          20,104
   7      03/05/10          10,207          98,020           70,876          27,144
   8      06/17/10           3,314         101,334           99,210           2,124
   9      10/26/10          21,271         122,605          122,606              -1
  10      02/04/11          14,852         137,457          140,929          -3,472
  11      07/22/11          19,223         156,680          158,857          -2,177
  12      10/20/11          13,662         170,342          171,833           1,491
  13      02/01/12           5,685         176,027          176,064             -37
Source: OIG Analysis of Spokane’s drawdowns and general ledger

Expenditures

      As of December 2012, Spokane had expended $199,459 (52 percent)
of the award. We judgmentally selected a sample of 25 transactions totaling
$46,603 in August 2011 from a universe of $74,386 in expenditures to
determine if costs charged to the award were allowable and in compliance
with terms and conditions. The expenditures we selected included costs
related to salaries, travel, training, supplies, and contractor-related
expenditures. We reviewed supporting documentation including purchase
orders, invoices, receipts, and check copies. Our review found transactions
that were unallowable, unauthorized, and unsupported that we discuss in
more detail below.

Unallowable Expenditures

      According to the special conditions for the award, “the grantee must
receive prior approval from OVW before using OVW grant funds to attend
any training, workshops, or conferences not sponsored by OVW.” During our
review, we identified six expenditures totaling $15,268 for Spokane
employees to attend non-OVW sponsored seminars for which Spokane did
not obtain prior OVW approval. According to Spokane officials, they were
not aware of the requirement to obtain prior OVW approval. We considered
these expenditures as unallowable. Therefore, we questioned $15,268 in
travel and training expenditures and we recommend that OVW ensure
Spokane remedies the $15,268 in unauthorized training expenditures.



                                       – 7 –

      Additionally, we identified a $527 rental car expenditure that was not
related to the OVW cooperative agreement. According to a Spokane official,
the car rental fee was inadvertently billed to the OVW award when it should
have been billed to the Spokane Law Enforcement Information System
Department. As of September 2012, Spokane had not corrected this error.
As a result, we questioned the $527 travel expenditure as unallowable and
we recommend that OVW ensure Spokane remedies the unallowable
amount.

Unsupported Expenditures

      According to 2 C.F.R. Part 225, costs must be necessary, reasonable,
and adequately documented. Our expenditure testing found that 24 of the
25 transactions we reviewed were properly supported. However, we noted a
$1,573 expenditure related to travel and training that was not adequately
supported. During our audit, we requested from Spokane supporting
documentation but none was provided. A Spokane official informed us that
they would take another look at the $1,573 expenditure and provide
supporting documentation if available. Therefore, we questioned the $1,573
expenditure as inadequately supported and we recommend that OVW ensure
Spokane remedies the questioned expenditure.

Personnel

       According to the OJP Financial Guide, charges made to federal awards
for salaries, wages, and fringe benefits should be based on payroll records
approved by responsible officials and the charges must be in accordance
with the generally accepted practices of the organization. In particular,
where grant recipients work on multiple grant programs or cost activities, a
reasonable allocation of costs to each activity must be made based on time
and effort reports, such as timesheets.

      We judgmentally selected a sample of payroll expenditures to
determine if these expenditures were allowable, reasonable, and adequately
supported for both of the part-time Spokane personnel whose personnel
costs were charged to the cooperative agreement. Specifically, we selected
two non-consecutive payroll periods totaling $3,191 ($2,969 in salaries and
$222 in fringe benefits). We found that the sample transactions tested were
accurately recorded, properly authorized, and adequately supported.

Accountable Property

     According to the OJP Financial Guide, property records should be
maintained accurately and include the source of the property and the


                                    – 8 –

award number. We reviewed Spokane’s property records and determined
that the records did not include information as required by the OJP Financial
Guide. Specifically, Spokane did not identify an OVW-funded laptop
computer as federally funded or include the award number in its property
records as required. Although we brought this to Spokane’s attention during
our fieldwork, it had not updated its property records. We learned that
Spokane plans to update its inventories to identify equipment that is
federally funded along with the corresponding award number. We
recommend that OVW ensure that Spokane maintain accountable property
inventory records that identify all award-funded property as federally funded
and include the award number. 6

Monitoring Contractors

      We noted during our expenditures testing that Spokane had
reimbursed one of its contractors, the YWCA, for travel, lodging and training,
and contract salary expenses. Although the expenses were authorized,
appropriate supporting documentation was not provided to Spokane before
Spokane paid YWCA. During our audit, Spokane resolved this issue by
requesting and receiving required invoices and timesheets from the YWCA.
Further, Spokane has informed us that it now ensures contractors provide
adequate supporting documentation, such as invoices and timesheets,
before reimbursement is made. We recommend that OVW ensure that
Spokane finalize this requirement by establishing a written policy and
procedures to ensure its contractors provide adequate supporting
documentation when requesting reimbursements.

Budget and Management

      The OJP Financial Guide and 28 C.F.R. Part 66 require prior approval
from the awarding agency if the movement of dollars between budget
categories exceeds 10 percent of the total award amount for awards over
$100,000. Based on our review of the award package and solicitation, we
determined that the award exceeded the $100,000 threshold and was
subject to the 10 percent rule. Our analysis of the budget as compared to
actual expenditures found that there were no budget deviations that
required OVW approval.




       6
           Our prior audit of an OJP grant to Spokane also disclosed this deficiency related to
identification of federally funded equipment. OIG, Audit of the Office of Justice Programs
Edward Byrne Memorial Justice Assistance Grant Program Grants Awarded to the City of
Spokane, Washington, 10.


                                             – 9 –

Reporting Requirements

      According to the OJP Financial Guide, award recipients are required to
submit quarterly Federal Financial Reports (FFR) and semi-annual Progress
Reports. These reports describe the status of funds, project
accomplishments, and other pertinent information. We reviewed the FFRs
and Progress Reports submitted by Spokane to determine whether the
reports were accurate and submitted in a timely manner.

Federal Financial Reports

      The OJP Financial Guide states that quarterly FFRs are due no later
than 30 days after the end of each quarter and final FFRs are due within
90 days after the end date of the award. We reviewed the last four FFRs, as
of the June 30, 2012, reporting period, to determine if Spokane submitted
these reports on time. As illustrated in Exhibit 3, we found that Spokane
submitted all reports in a timely manner.

                              EXHIBIT 3

                  FEDERAL FINANCIAL REPORT HISTORY

                                                          DATE      DAYS
     NO.       REPORTING PERIOD      REPORT DUE DATE    SUBMITTED   LATE
      1       07/01/11 - 09/30/11       10/30/11         10/19/11    0
      2       10/01/11 - 12/31/11       01/30/12         01/30/12    0
      3       01/01/12 - 03/31/12       04/30/12         04/27/12    0
      4       04/01/12 - 06/30/12       07/30/12         07/17/12    0
  Source: OIG analysis of FFRs

      We also reviewed the FFRs to determine whether they contained
accurate financial information related to actual expenditures and program
income for the awards. The OJP Financial Guide states that award recipients
must report program outlays and revenue on a cash or accrual basis in
accordance with their accounting system. We compared the four most
recently submitted FFRs as of June 30, 2012, to Spokane’s accounting
records.

       Our review noted that expenditures were not accurately reported on
two of the four FFRs we reviewed. As shown in Exhibit 4, we found
discrepancies of $60 and $4,995 between the expenditure amounts reported
on Spokane’s FFRs and its accounting records. According to a Spokane
official, the differences were due to a $60 expenditure that was ultimately
not charged to the award, but was included on the FFR, and a $4,995 award-
related expense it chose not to claim for reimbursement. Even though
Spokane may have decided not to obtain reimbursement for some of the
award-related expenditures, it was nevertheless required to include those


                                    – 10 –

expenditures on its FFRs. Therefore, we recommend that OVW ensure
Spokane accurately includes all award-related expenditures on its FFRs,
regardless of whether it received reimbursement for those expenditures. 7

                             EXHIBIT 4
           ACCURACY OF SPOKANE’S FEDERAL FINANCIAL REPORTS

                                                            ACCOUNTING
                                            FFR              RECORDS'
 NO.      REPORTING PERIOD             EXPENDITURES        EXPENDITURES        DIFFERENCE
  1      07/01/11 - 09/30/11                 $ 15,183            $ 15,123          $     60
  2      10/01/11 - 12/31/11                    5,745               5,745                 0
  3      01/01/12 - 03/31/12                      382               5,377            -4,995
  4      04/01/12 - 06/30/12                    2,647               2,647                 0
Source: OIG analysis of FFRs

Progress Reports

      According to the OJP Financial Guide, grantees are required to submit
Progress Reports on semi-annual basis within 30 days of the end of the
reporting periods, which are June 30 and December 31. Progress Reports
are used to describe the performance of activities or the accomplishment of
objectives as identified in the award application. As of June 30, 2012, we
evaluated the timeliness and accuracy of the Progress Reports for the last
2 years.

     As indicated in Exhibit 5, Spokane submitted all four of its Progress
Reports in a timely manner. Additionally, our review found that the reports
were accurate.

                                   EXHIBIT 5

                            PROGRESS REPORT HISTORY

                                             REPORT               DATE
       NO        REPORTING PERIOD           DUE DATE           SUBMITTED      DAYS LATE
        1       07/01/10 - 12/31/10         01/30/11            01/05/11         0
        2       01/01/11 - 06/30/11         07/30/11            07/15/11         0
        3       07/01/11 - 12/31/11         01/30/12            01/30/12         0
        4       01/01/12 - 06/30/12         07/30/12            07/26/12         0
    Source: OIG Analysis of Progress Reports




       7
         Our prior audit of an OJP grant to Spokane also disclosed a deficiency related to the
accuracy of FFRs. OIG, Audit of the Office of Justice Programs Edward Byrne Memorial Justice
Assistance Grant Program Grants Awarded to the City of Spokane, Washington, 10-12.


                                           – 11 –

Additional Award Requirements

       We reviewed Spokane’s compliance with specific program
requirements in the award solicitation as well as the special conditions
included in its award. We determined that Spokane violated an award
special condition that specified that prior approval from OVW was required
before using funds to attend non-OVW sponsored training and conferences.
This issue was previously discussed in the Expenditures section of this
report.

Program Performance and Accomplishments

       According to award documentation, the goal of the cooperative
agreement that was awarded to Spokane was to provide training
opportunities to criminal justice professionals and cross-training to victim
service organizations, governmental agencies, courts, law enforcement, and
non-profit, non-governmental organizations serving victims of elder abuse.
In addition, the intent of the cooperative agreement was to provide and
enhance services for victims of elder abuse, create a collaborative
community response to victims of elder abuse, and review and establish
policies and protocols to aid in improving the identification, investigation,
prosecution, and adjudication of elder abuse cases.

      In order to accomplish these objectives, Spokane planned to work with
partners to develop a multidisciplinary approach to address elder abuse in its
community. Partners included the Spokane Police Department, the Spokane
County Prosecuting Attorney, the YWCA of Spokane, Adult Protective
Services, Elder Services, and the Gonzaga University School of Law.
Spokane called this partnership the Vulnerable Adult Linked Organizational
Response (VALOR) project. Spokane also provided VALOR with three major
goals: (1) educating the vulnerable adult population and those who serve
them in recognizing and preventing victimizations; (2) quickly respond and
triage an emergent situation to stem further victimization; and (3) develop
long-term remedies to reduce the potential for further victimization and
repair harm done by previous victimization.

      Our audit found that Spokane was fulfilling its planned actions and
thereby making progress in achieving the objectives of its cooperative
agreement with OVW. For example, Spokane and its VALOR partners
established a Memorandum of Understanding which detailed agreed upon
roles and responsibilities in responding to elder abuse within the community.
The VALOR team also created a guide for law enforcement that provided
detailed information and definitions, indicators, and a list of some of the
more prevalent types of elder abuse. Additionally, Spokane’s law


                                   – 12 –

enforcement personnel and the other members of VALOR attended training
seminars and workshops regarding elder abuse.

      The YWCA of Spokane, a VALOR partner, played a significant role in
providing resources to elder abuse victims. Spokane contracted with the
YWCA of Spokane to provide support services to elder abuse victims through
an elder abuse victim’s advocate. Services provided by the advocate
included counseling and liaison services with other VALOR partners and
community organizations for services such as shelter and legal assistance.
Between January 2009 and May 2012, the YWCA provided counseling and
assistance to 476 individuals with elder abuse issues.

       Perhaps most importantly, according to the Spokane Police
Department, incidents of reported elder abuse increased each year from
2009 to 2011, as illustrated in Exhibit 6. According to a VALOR program
official, the increase in reporting may indicate the community’s increased
awareness of elder abuse, which prompted greater reporting.

                                     EXHIBIT 6
                         REPORTED INCIDENTS OF ELDER ABUSE 8
                                                                              PERCENTAGE
      TYPE OF INCIDENT       2009           2010       2011       TOTAL        OF TOTAL
 Physical Abuse Crimes          291            361        401      1,053          18
 Financial Crimes             1,240          1,528      1,818      4,586          80
 Sex Crimes                      31             27         31         89           2
                     Total    1,562          1,916      2,250      5,728         100
Source: Spokane Police Department

       However, one area that did not show improvement was the
investigation of incidents of elder abuse. As previously mentioned, reported
cases of elder abuse increased during the award period. Yet Spokane
statistics indicate that the investigations of elder abuse cases decreased
during the same period as shown in Exhibit 7.




       8
          Incidents of elder abuse were classified into three broad categories: physical
abuse crimes, financial crimes, and sex crimes. Physical abuse crimes include domestic
violence, domestic violence order violations, and stalking. Financial crimes include fraud,
forgery, and theft. Sex abuse crimes included incidents of rape and other sex-related
offenses.


                                           – 13 –

                                                                  EXHIBIT 7

                                                   INVESTIGATIONS AND WARRANT REQUESTS

                                                                                 9

                                                           FOR ELDER ABUSE CASES
                                                                    Assigned Cases & Arrest Warrants Requested
                                             100
       Number of Cases and Arrest Warrants




                                                   81
                                                                              75
                                             80

                                             60
                                                   52

                                             40
                                                                     Assigned Cases
                                                               22                          21
                                                                                                                     Arrest Warrants
                                             20
                                                               10


                                              0

                                                        2009                       2010                 2011
                                                                                   Years


    Source: Spokane Police Department

       According to a program official, the Spokane Police Department
assigned one detective to work full-time on elder crimes and the VALOR
project. According to the detective, his responsibilities as a VALOR Program
official, which included administrative duties, community training, and
providing assistance to outside agencies, limited the amount of time
available for investigations and this was reflected in the decrease in the
number of investigative cases. Therefore, we recommend that OVW work
with Spokane to identify solutions to ensure that investigations related to
crimes against the elderly are not neglected as a result of other program
activity.

Post End Date Activity

      According to the award documentation, this OVW award was to end on
September 30, 2012. We reviewed the post end date activity, including
submission of the final progress and financial reports and found no
reportable exceptions. Additionally, we found no indication of late
drawdowns.

Conclusion

       We found that Spokane did not comply with essential award
requirements in seven of the nine areas we tested. Specifically, we
identified an internal control weakness whereby the accountant responsible
        9
           The Spokane Police Department assigned one detective to elder crimes and to work
full-time on the VALOR project. The Spokane Police Department later added a fraud detective
to work part-time on elder victimization cases. Exhibit 7 reflects only those cases assigned to
the full-time detective from 2009 - 2011.


                                                                                     – 14 –

for processing accounts payable also had access to the Master Vendor List
Accounts listing. Additionally, Spokane did not have controls in place to
prevent or immediately identify an erroneous $22,076 drawdown from
another grant, which resulted in drawdowns exceeding expenditures for
6 months. We also determined that Spokane expended $15,268 for training
seminars that were not authorized by OVW, as required. Further, we
identified $527 in travel expenditures that were not related to the award and
$1,573 in training costs that were not adequately supported with
documentation, as required. Spokane also failed to identify on its property
records those pieces of accountable property that were purchased with OVW
funds. Spokane did not ensure that its contractor provided adequate
supporting documentation for expenditures that were being claimed for
reimbursement. Moreover, Spokane did not always include all the award-
related expenditures on its Federal Financial Reports. Finally, we noted that
Spokane’s elder abuse investigations decreased during the award period
despite significant increased reporting of elder abuse incidents.

Recommendations

     We recommend that OVW:

     1.	 Ensure that Spokane strengthens its internal controls over the
         Master Vendor List by limiting who has access to the list in order
         to minimize the potential risk of unauthorized changes to vendor
         information.

     2.	 Ensure that Spokane formalizes its new procedures that involve
         the reconciliation of award receipts to actual expenditures before
         funds are drawn down.

     3.	 Remedy the $15,268 in questioned costs related to unauthorized
         training expenditures.

     4.	 Remedy the $527 in questioned costs related to unallowable travel
         expenses.

     5.	 Remedy the $1,573 in questioned costs related to unsupported
         training and travel expenditures.

     6.	 Ensure that Spokane maintains accountable property inventory
         records that identify all award-funded property as federally funded
         and include the award number.




                                   – 15 –

7.	 Ensure that Spokane establishes written policy and procedures to
    ensure its contractors provide adequate supporting documentation
    when requesting reimbursements.

8.	 Ensure that Spokane accurately includes all award-related
    expenditures on its FFRs, regardless of whether it received
    reimbursement for those expenditures.

9.	 Work with Spokane to identify solutions to ensure that
    investigations related to crimes against the elderly are not
    neglected as a result of other program activity.




                             – 16 –

                                                             APPENDIX I

              OBJECIVE, SCOPE, AND METHODOLGY

      The purpose of our audit was to determine whether costs claimed
under Award 2008-EW-AX-K009 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the award. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including personnel,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) monitoring of sub-recipients and contractors; (7) budget management;
(8) reporting; (9) additional award requirements; (10) program performance
and accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, and matching were not applicable to this
award.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of the Award 2008-EW-AX-K009 in
October 2008 through June 2012. Further, the criteria we audited against
are contained in the OJP Financial Guide, Code of Federal Regulations, OMB
Circulars and specified program guidance, such as award documents.

      In conducting our audit, we performed sample testing in four areas,
which included expenditures, personnel costs, financial reports, and Progress
Reports. In this effort, we employed a judgmental sampling design to obtain
broad exposure to numerous facets of the award we reviewed, such as dollar
amounts or expenditure categories. We reviewed a judgmentally selected
sample of transactions that were recorded in Spokane’s award-related
accounting records as of June 2012. This included 25 expenditures related
to Award 2008-EW-AX-K009. Additionally, we selected a judgmental sample
of 2 non-consecutive payroll periods and we tested 4 Progress Reports,
4 FFRs, and 13 drawdowns.

      We did not test internal controls for Spokane taken as a whole or
specifically for the award administered by Spokane. An independent


                                   – 17 –

Certified Public Accountant conducted an audit of Spokane’s financial
statements. The results of this audit were reported in the Single Audit
Report that accompanied the Independent Auditors’ Report for the year
ending 2010. The Single Audit Report was prepared under the provisions of
OMB Circular A-133. We reviewed the independent auditor’s assessment to
identify control weaknesses and significant noncompliance issues related to
Spokane or the federal programs it was administering, and assessed the
risks of those findings on our audit.

      In addition, we reviewed the timeliness and accuracy of FFRs, Progress
Reports, and evaluated performance to award objectives. However, we did
not test the reliability of the financial management system as a whole, nor
did we place reliance on computerized data or systems in determining
whether the transactions we tested were allowable, supported, and in
accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s Grant
Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data for the purposes of our audit.
However, the OIG has not performed tests of the GMS system specifically,
and we therefore cannot definitively attest to the reliability of GMS data.




                                  – 18 –

                                                                      APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS
                                                            AMOUNT ($) PAGE
QUESTIONED COSTS:

Unsupported Costs

   Inadequately supported expenditure                            $   1,573       8


Subtotal of Unsupported Costs                                    $   1,573


Unallowable Costs

   Unauthorized training & travel expenditures                   $ 15,268        7

   Unallowable travel expenditure                                    $527        8


Subtotal of Unallowable Costs                                    $ 15,795


TOTAL QUESTIONED COSTS 10                                         $17,368 


TOTAL DOLLAR RELATED FINDINGS                                     $17,368





      10
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.


                                         – 19 –

                                                                                APPENDIX III

              CITY OF SPOKANE, WASHINTON
          RESPONSE TO THE DRAFT AUDIT REPORT

                                                                           City Dr SpI'IkaOf
                                                                           808 W. Spobne faIL. B1~d .
                                                                           Spokane. WashinSton99201·1113
                                                                           (509) 625-6091

                                                                           J t n nJrrr S tlplrlOn, CGMS
                                                                           Gnonts Ml'Mgemcnt &; Financial
                                                                           AssiSlance




November 18, 2013


Davi d Gaschke
Regional Audit Manager
U.S. Department of Justice
Office of Inspector General
San Francisco Regional Audit Office
1200 Bayhill DriV(", Suite 201
San Bruno, CA 94066

Re:    Response to Draft Audit Report
       Cooperative Agreement No. 2008-EW-AX-KOO9

Dear Mr. Ga..'«:hke:

Please consider this lctter as the fonnal written response from the City of Spokane to
your draft audit report on the Office of Violence Against Women (OVW) cooperative
agreement number 2008-EW-AX-KOO9.

Recommenda tion No. I : Master Ve ndor List

The City of Spokane agrees that it should strengthen its internal controls over the master
vendo r list to minimize the potential risk of unauthorized changes to vendor infonna tion.
The City is in the process of enhanci ng its segregati on of duties in tbe Accounting
Department to remove the Acoountan t II's abili ty to add or modify data in the master
vendor list. The new procedures will be implemen ted and documented prior to Decem ber
11 , 20n.

Recommendatio n No. 2: Reconciliation Prior to Draw Downs

The C ity of Spokane agrees that it needs to improve ils internal controls over its grant
draw downs. In fact, the City recently passed an ordinance establishing a new Ct.'T!tral
Department orGnm ts Management & Financial Assistance. The Director of this
department was hired from another local govcrnmcnt with a highly successful track
record of implementing enhanced intemal controls and oversight of grants and fi nancial
ass istance awards formalized in an adopted policy and procedures. This will improve our
overall managemen t and compliance with grants and olher awards of financial assistancc.

We arc in the process of drafting a centralized Grants & Financi al Assistance Policy and
Procedures at the City which will be in place and distributed prior to March 3 1, 2014.
This new policy and procedures win include a provision ror the central review and




                                                 – 20 –

David Gaschke
Regional Audit Manager
U.S. Department of Justicc
Officc of Inspector General
November 18, 2013
Page 2

approval of financial and progmm reports and draw down requests, including the
reconciliation of award receipts to actual expenditures before funds are drawn down.

 In order to immediately strengthen our internal controls over our existi ng Department of
Justice awards, tbis procedure has been implemented for these awards effective
November 12, 2013.

Recommendation No.3: Questioned Costs            Training

The City of Spokan e will contact the Department of Justi ce, OVW, regarding the $ 15,268
in questioned costs for unauthorized training expenditures prior to December 3 1, 2013 for
further instruction. The City understands the special cond itions that OVW pla«s on its
grant-supported travel and will ensure that there is an internal secondary review and
approval for compliance with these special conditions in C  uture OVW grant awards. This
will be documented in fonnal policy and procedures to be adopted and distributed prior to
Mareh 31, 2014.

Retommendation No.4: Questioned Costs - Travel

The Ci ty of Spokane will contact the Department of Justice, OVW, regarding the $527
questioned costs for travel expenditures prior to December 3 1,2013 for further
instruction. We agree that this expense shoul d not have been charged to this grant and
our enhanced internal controls will ensure that Ihis does not happen in the future.

Recommendation No.5: Ouestionro Costs - Unsupported TrainlngITravei

The City of Spokane has appropriate supporting documentation for the $ 1,573 in
questioned train ing and travel expenditures. Of this total, supporting documentation
identifies $ 1,404 in allowable expenditures. The documentation was pro vided to the
auditor after the c lose of the audit period and the City will provide the documentation to
OVW prior to December 3 1, 2013 for further instruction.

Recommendation No.6: Property Records

The City's new Grants & Financial Assistance Management Policy & Procedures to be
adopted prior to March 31, 2014, will contain a provision to ensure that property
purehased with Federal funds is properly identified in the propeny inventory records of
the City of Spokane and its subrecipients. Enhancements will ensure that a description oC
the property; serial or other identifying number; source of funding; titleholder;
acquisition date; cost; percentage ofFedcral panicipation in thc cost; location; condition
and usc; and ultimate disposition infonnation is included. A new grunts administrator
position in the central Department of Grunts Management & Financial Assistance will
oversee compliance with this procedure and perfonn routine quali ty assurance audits.




                                           – 21 –

David Gaschke
Regional Audit Manager
U.S. Department of Justice
Officc of Inspector General
November 18, 2013
Page 3

Recommendation No.7: Contractor Reimbursements

The City of Spokane will require contmctors provide adequate supporting documentation
when requesting reimbursements. Th is requirement will be established in the new Grants
& Financial Assistance Management Policy & Procedures as well as included as a
requirement in all subrccipient contracts. A subrccipient contract template is uruler
deve lopment by the central Grants Management & Financial Assistance Department in
conjunction with the Legal Department and will be implemented January 1, 2014.

Re<:ommcndation No. 8: RepOrting of Award-Related Expenditures

As indicated in our response to Rewmmendation No.2, the City o[Spokane is
implemeuting a new policy and procedures that will include a provision for the central
review aud approval of financial and program reports and draw down requests, including
the rewnciliation of award receipts to actual expenditures before funds arc drawn down.

In support of th is effort, the City is also reviewing enhancements to its accounting system
and proCe!lSes that will provide for improved segregation and tracking of expenditures
and revenues associated with multiple funding sources but related to an overall project.

Recommendation No.9: Progr.am Accountability

The City of Spokane is eurrently in the process ofrevicwing central grant tracking and
management systems that will provide for increased oversight aud review throughout the
lifecycle of a graut project. One of our system requirements includes the ability to more
effectively monitor and report on program performance. Additionally, we are
implementing an enhanced oversight process when identifYing and pursuing grant
funding for projects to ensure that grant programs al ign with identified strategic
iuitiatives of the Ci ty.

We intend to have a central grant tracking and management system in use by January I ,
2014.




                                            – 22 –

David Oaschkc
Rcgional Audit Manager
U.S. Department of Just ice
Office of Inspecto r Ot:ncral
November 18,2013
Page 4

A final copy orthe adopted policy and procOOurClj referenced thro ugho ut this response
will be pro vided to OVW no later than March 31 , 201 4.

Thank yo u for providing us the opportunity to respond to your report. I f I can provide
any additional infonnation or address any additional questions or concerns, please contact
me at your convenience at (509) 625-6091, or jstapleton@spokanecity.org.

Sincerel y,



~~~
Cc:     Frank Straub, Chief of Police
        Tim Schwering, Director or Strategic Initiatives
        Gavin Cooley, Chief Financial Officer
        Pam Dolan, Aee(}unling Director
        Office of Violence Against Women, DOJ




                                           – 23 –

                                                                                              APPENDIX IV

       OFFICE ON VIOLENCE AGAINST WOMEN
      RESPONSE TO THE DRAFT AUDIT REPORT




                                                           U.S. Department or Justice
                                                           Office on Violence Agairrsl Women
                                                            Washjngton, DC. 20530




                                                      December 4, 20 \3



MEMORAND UM


TO:                           David J. Gaschkc
                              Regional Audit Manager
                              San Francisco Re gi onal Audi t Otlice

FROM:                         Bea Hansoo'l7
                              Acting Di~ccfu?
                                               't-
                              Office on Violence Against Women

                              Rodney Samuels         ~
                              Audit Liaisorv'Staff Accountant
                              Office on Violence Against Women

SUBJECT:                      Response to the Draft Audit Report - Audit of the Otli cc on
                              Violence Against Women Grants Awarded to the City of Spokane.
                              Washington


This memorandum is in response to your correspondence dated October 30, 20 13 transmi tting
the above draft audit report for the City of Spokane. \Vc consider the subject report resolved and
request written acceptance of this action fro m yo ur office.

The report contains nine recommendations and $17,368 in questioned costs. The Office on
Violence Against Women (OVW) is committed to working with the grantee to address each
recommendation and bring them 10 a close as qu ickl y as possible. The fo ll owing is our analysis
of the audit recommendations.

    I) Ensure th at Spokane stren gth ens its intern al controls over the Maste r Vendors Lis t
       by limitin g who has access to the Ijst in or der to minimize th e poten tial risk of
       unauthorized ch anges to vendo r inform ation,

       OVW does agree with this recommendation. We will coordinate with the Spokane to
       cnsure that they strengthcn its internal controls over the Master Vendors List by lim iting




                                                 – 24 –

    who has access to the list in order to minimize the potential risk of unauthorizt:d changes
    to ,'cndor infonnation,


2) Ens ure th at S poka n c formJllizcs its new proccdu res that in volvc t he reconcilia ti on of
   awa r d r eceip ts to actual expenditu res before fun ds a re drawn down,

   OVW dOt:s agree wi th the rccommendation, We will coordinate with thc Spokane 10
   ensure that they fOnllalize its new procedures that involve Ihe rt.-c oneiliation of award
   receipts to actual clIpL"1lditurcs before funds arc drawn down.

J) Remedy th e SI 5,268 in q Ul.'stioned costs rd a led to unaut hori7,l.'d tra in in g
    ex pend iture5,

   ovw does agree with the recommendation.        We will coordinate with the SpokMe to
    remedy the S 15,268 in questioned costs related to unauthorized trai ning ex penditures.

4) Re medy th c S527 in questio ned costs r daled to unauthorized t.ravel ex penses.

   OVW docs agree with thc recommendation. We will coordinate with Spokane \0 remedy
   the S527 in questioned costs relatl-d to unauthorizoo travel expenses.

5) Rcmedy the SI,573 in tl Ucstiolled costs rd ated to uns up po rt ed tra ini ng a nd Ir:wcl
   expenses.

   OVW docs agree wi th the recommendation. We will coordinate with th e Spokan e to
   remedy the S I ,573 in questi oned costs related to unsupported tmini ng and travel
   cxpenSl'S.

6) E nsure th at S pokane mai ntains aeeo unta ble p roperty   in ~'c nto ry r ecords th a t
    identify al a ward -fun d ed property as fed er ally funded a nd include th e award
    num ber.

   OVW dOL'S agree with the recommendation. We will coordinate with Spokane to ensure
   that they maintain accountable property inventory rt.'COrds th ot identify all awanl-fundc.-d
   propert y as fed c.-rally fu nded and include the awa rd number.

7) Ens ure tha t Spokane esta b lishes written policy and proccdu res to ens u re ils
   (onlnu::tors provide adequate su p port ing dO(Ulllen ta tio n whe n r equesting
   rei mb urs emen ts.

   OVW docs agn..'C with the rt.'Commendation. We will coordinate with Spokane to ensure
   that they l'StabJish wnllcn policy and procedures to ensu re its contractors provide
   adeq uate supporting documentation when rt.'questing reimbursements.




                                          – 25 –

     8) Ensure that Spokane accurately includes all award-related expenditures on its
        FFR's, regardless of whether it received reim bursement for those expenditures.

        OVW does agree with the recommendation. We wi ll coordinate with Spokane to ensure
        that they accurately include all award-related ex penditures on its FFR-s. regardless of
        whether it received reimbursement fo r those expenditures.

     9) Work with Spokane to identify solutions to ensu re that investigations related to
        crimes aga inst the elderly are not neglected as a result of otber program activity.

        OVW does agree with the recommendation. We will coordinate with Spokane to ensure
        that we identi fy solutions to ensure that investigations related to crimes against lhe
        elderly are not neglected as a resul t of other program activity.


We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional infonnation, please contact Rodney Samuels of my staff at
(202) 51 4-9820.


cc    Angela Wood
      Accounting Officer
      Office on Violence Against Women (OVW)

      Louise M. Duhamel, Ph.D.
      Acting Assistant Director
      Audi t Liaison Group
      Justice Management Division

      Janice Greene
      Program Specialist
      Office on Violence Against Women




                                           – 26 –

                                                               APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit to the City of Spokane, Washington (Spokane)
and the Office on Violence Against Women (OVW). Spokane’s and OVW’s
responses are incorporated in appendices III and IV of this final report,
respectively. The following provides the OIG analysis of the responses and a
summary of OVW’s actions necessary to close the report.

Recommendation Number:

1. Resolved. OVW concurred with our recommendation that it ensure that
   Spokane strengthens its internal controls over the Master Vendor List by
   limiting who has access to the list in order to minimize the potential risk
   of unauthorized changes to vendor information.

   In its response, Spokane agreed that its internal controls over the Master
   Vendor List should be strengthen to minimize the potential risk of
   unauthorized changes to vendor information. Spokane stated that it was
   in the process of enhancing its segregation of duties in the Accounting
   Department, and that the Accountant II’s ability to add or modify data in
   the master Vendor List will be removed. Spokane also noted that it
   expects the new procedures to be implemented and documented prior to
   December 31, 2013.

   This recommendation can be closed when OVW provides evidence that
   Spokane’s new procedures strengthen internal controls over who has
   access to its Master Vendor List to minimize risk of unauthorized changes
   to vendor information.

2. Resolved. OVW concurred with our recommendation that it ensure that
   Spokane formalizes its new procedures that involve the reconciliation of
   award receipts to actual expenditures before funds are drawn down.

   In its response, Spokane agreed that it needs to improve its internal
   controls over its grant drawdowns. Additionally, Spokane stated that it
   recently passed an ordinance establishing a new central Department of
   Grants Management and Financial Assistance, and has hired an individual
   to manage this department. Spokane is currently drafting Grants and


                                    – 27 –

  Financial Assistance Policy and Procedures that will require review and
  approval of financial and program reports and drawdown requests, as well
  as a requirement to reconcile all reward receipts to actual expenditures
  before funds are drawn down. Spokane expected its Grants & Financial
  Assistance Policy and Procedures to be completed by March 31, 2014.

  This recommendation can be closed when OVW provides evidence that
  Spokane’s Grants & Financial Assistance Policy and Procedures addresses
  the requirement to reconcile award receipts to expenditures before funds
  are drawn down.

3. Resolved.	 OVW concurred with our recommendation that Spokane
   remedy the $15,268 in questioned costs related to unauthorized training
   expenditures.

  In its response, Spokane stated that it understands the Special Conditions
  that OVW placed on grant-supported travel and will ensure that there is
  an internal secondary review and approval for compliance with special
  conditions in future OVW grant awards. Additionally, Spokane stated that
  this new requirement will be documented in formal policy and procedures
  scheduled to be implemented by March 31, 2014. Furthermore, Spokane
  stated that it will contact OVW regarding the $15,268 in questioned costs
  before December 31, 2013, for further instruction.

  This recommendation can be closed when OVW provides evidence that
  (1) Spokane has remedied the $15,268 in unauthorized training
  expenditures and (2) Spokane’s policy and procedures have been
  implemented to require a secondary review and approval of grant-related
  travel for compliance with the grant’s special conditions.

4. Resolved. OVW concurred with our recommendation that Spokane
   remedy the $527 in questioned costs related to unallowable travel
   expenses.

  In its response, Spokane agreed that the $527 questioned expense
  should not have been charged to the OVW grant, and noted that
  enhanced internal controls will ensure that this does not occur in the
  future. Additionally, Spokane stated that it would contact OVW regarding
  the $527 in questioned costs for further instruction.

  This recommendation can be closed when OVW provides evidence that
  Spokane has remedied the $527 unauthorized travel expenditures.




                                  – 28 –

5. Resolved. OVW concurred with our recommendation that Spokane
   remedy the $1,573 in questioned costs related to unsupported training
   and travel expenditures.

  In its response, Spokane stated it has appropriate supporting
  documentation for $1,573 in questioned training and travel expenditures,
  of which it believes $1,404 is allowable. Spokane also stated that it
  would provide OVW with the documentation prior to December 31, 2013,
  for further instruction.

  This recommendation can be closed when OVW provides evidence that
  Spokane has remedied the $1,573 in questioned training and travel
  expenditures.

6. Resolved. OVW concurred with our recommendation that it ensure that
   Spokane maintains accountable property inventory records that identify
   all award-funded property as federally funded and include the award
   number.

  In its response, Spokane stated its new Grants and Financial Assistance
  Management Policy and Procedures are to be adopted by March 31, 2014,
  and will contain a provision to ensure that property purchased with
  federal funds is properly identified in the property inventory records of
  the city and its sub-recipients. Enhancements will ensure that the
  property description, serial or other identifying number, source of
  funding, titleholder, acquisition date, cost, percentage of Federal
  participation in the cost, location, condition and use, as well as ultimate
  disposition of the property are included. Further, Spokane noted that its’
  new grants administrator will oversee compliance of this procedure, and
  will perform routine quality assurance audits.

  This recommendation can be closed when OVW provides evidence that
  Spokane’s new policy requires that inventory records identify all grant-
  funded property as federally funded and include the grant number.

7. Resolved. OVW concurred with our recommendation that it ensure that
   Spokane establish written policy and procedures to ensure its contractors
   provide adequate supporting documentation when requesting
   reimbursements.

  In its response, Spokane stated its’ Grants and Financial Assistance
  Management Policy and Procedures manual will require contractors to
  provide adequate supporting documentation when requesting
  reimbursements, and the requirement will be applicable to sub-recipients


                                   – 29 –

  as well. Additionally, a sub-recipient contract template is being

  developed by the Grants Management and Financial Assistance

  Department in conjunction with Spokane’s Legal Department and it 

  expects to implement it on January 1, 2014.


  This recommendation can be closed when OVW provides evidence that
  Spokane has established policy and procedures to ensure contractors
  provide adequate supporting documentation when requesting
  reimbursements.

8. Resolved. OVW concurred with our recommendation that it ensure that
   Spokane accurately includes all award-related expenditures on its FFRs,
   regardless of whether it received reimbursement for those expenditures.

  In its response, Spokane stated it is implementing new policies and
  procedures that will include a provision for a central review and approval
  of financial and program reports, and drawdown requests, including the
  reconciliation of award receipts to actual expenditures before funds are
  drawn down. Further, Spokane is reviewing enhancements to its
  accounting system and processes that will improve segregation and the
  tracking of expenditures and revenues associated with multiple funding
  sources, but related to an overall project.

  This recommendation can be closed when OVW provides evidence that
  Spokane has established policies and procedures to ensure that it
  includes all award-related expenditures on its FFRs, regardless of whether
  it received reimbursement for those expenditures.

9. Resolved. OVW concurred with our recommendation that it work with
   Spokane to identify solutions to ensure that investigations related to
   crimes against the elderly are not neglected as a result of other program
   activity.

  In its response, Spokane stated it is currently in the process of reviewing
  central grant tracking and management systems that will provide for
  increased oversight throughout the grant’s lifecycle. Spokane has
  required that the system effectively monitor and report on program
  performance. Additionally, Spokane is implementing an enhanced
  oversight process when identifying and pursuing grant funding for
  projects to ensure that grant programs align with identified strategic
  initiatives. The central grant tracking and management system is to be in
  use by January 1, 2014.




                                   – 30 –

This recommendation can be closed when OVW provides evidence that
Spokane has implemented solutions to ensure investigations related to
crimes against the elderly are not neglected as a result of other program
activity.




                                – 31 –

